                            SOCIAL SECURITY
                            Office of the Inspector General


                                    March 19, 2012

The Honorable Sam Johnson
Chairman, Subcommittee on
 Social Security
Committee on Ways and Means
House of Representatives
Washington, D.C. 20515

Dear Mr. Johnson:

In a June 16, 2011 letter, you and other members of the House Committee on Ways
and Means, Subcommittee on Social Security, requested we assess the use and
effectiveness of management controls regarding administrative law judges’ (ALJ)
adherence to the Social Security Administration’s (SSA) policies and procedures. To
address this request, we initiated two reviews. One review, Congressional Response
Report: Oversight of Administrative Law Judge Workload Trends (A-12-11-01138),
covered ALJ outliers and related management controls. The second review, discussed
in the enclosed report, addressed your request that we identify any constraints,
including statutory limitations, that make it difficult to ensure ALJ adherence to these
policies and procedures.

I appreciate the opportunity to share our insights on this important matter. To ensure
SSA is aware of the information provided to your office, we are forwarding a copy of this
report to the Agency.

If you have any questions concerning this matter, please call me or have your staff
contact Misha Kelly, Congressional and Intra-governmental Liaison, at (202) 358-6319.

                                         Sincerely,



                                         Patrick P. O’Carroll, Jr.
                                         Inspector General

Enclosure
cc:
Michael J. Astrue


             SOCIAL SECURITY ADMINISTRATION       BALTIMORE, MD 21235-0001
 CONGRESSIONAL RESPONSE
        REPORT
The Social Security Administration’s Review
 of Administrative Law Judges’ Decisions

              A-07-12-21234




                March 2012
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o nfid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a ins t fra u d, wa s te a n d a b us e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le info rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                    Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f Ins p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e pe n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la ting to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a ge nc y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a ge n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re ga rd in g e xis tin g a n d p rop o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a ge n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o pe ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p owe rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wha t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e while e nc o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                                                          Background
OBJECTIVE
The objectives of our review were to evaluate (1) the constraints, including statutory
limitations, the Social Security Administration (SSA) faces in reviewing administrative
law judges’ (ALJ) decisions and (2) SSA’s quality review systems for ALJs’ decisions.

BACKGROUND
The Office of Disability Adjudication and Review (ODAR) holds hearings and issues
decisions as part of SSA's process for determining whether a person may receive
benefits. ODAR directs a nationwide field organization staffed with ALJs who conduct
impartial hearings and make decisions on appealed determinations involving retirement,
survivors, disability, and Supplemental Security Income benefits.

A claimant who disagrees with an ALJ’s decision may ask for a review by the Appeals
Council (AC), 1 an ODAR component that provides the final Agency decision on
appealed cases. The AC may deny, dismiss, or grant the request. If the AC grants the
request, it will either issue a decision that affirms, modifies, or reverses the ALJ decision
or return the case to the ALJ with instructions to conduct further proceedings on the
case. 2

The majority of ALJs’ decisions are allowances. For example, in Fiscal Year (FY) 2011,
ALJs issued approximately 629,000 allowance or denial decisions, 3 of which
approximately 393,000 decisions (62 percent) were allowances. 4 Likewise, in FY 2010,
67 percent of ALJs’ decisions were allowances. Given these high allowance rates,


1
    20 C.F.R. §§ 404.967, 416.1467.
2
  Id. SSA refers to returning a case to an ALJ as a remand. See SSA, POMS, GN 03104.350 A.2
(July 10, 2001). Generally, when the AC returns a case, it is reassigned to the ALJ who originally issued
the decision. A case would not be assigned to the ALJ who issued the original decision if the case was
previously assigned to that ALJ on a prior remand and the ALJ’s decision after remand is the subject of
the new remand or if the AC or the Federal court directs that the case be assigned to a different ALJ.
See SSA, HALLEX I-2-1-55-D.11 (February 12, 2009).
3
  In FY 2011, ODAR issued over 793,000 dispositions, of which approximately 740,000 were issued by
ALJs and over 53,000 were issued by Attorney Adjudicators. An Attorney Adjudicator can issue an
allowance decision that does not require a hearing. See 20 C.F.R. §§ 404.942, 416.1442. Of the
740,000 dispositions issued by ALJs, approximately 629,000 dispositions resulted in an allowance or
denial decision and the remaining 111,000 dispositions were dismissals of the hearing request. A hearing
request can be dismissed for a variety of reasons, including failure of the claimant to appear at the
hearing, the claimant choosing to withdraw the hearing request, or death of the claimant. See 20 C.F.R.
§§ 404.957, 416.1457.
4
    See Appendix C for more information regarding ALJ dispositions and decisions.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                        1
Congress and the media have raised concerns regarding the accuracy of ALJs’
decisions and SSA’s ability to review ALJs’ decisions.

In a June 16, 2011 letter, several members of the Committee on Ways and Means,
Subcommittee on Social Security, requested that we review SSA’s ability to review ALJs
for unusual allowance rates. Specifically, the Subcommittee requested we assess the
use and effectiveness of management controls regarding ALJ adherence to SSA’s
policies and procedures as well as any constraints, including statutory limitations, that
may make it difficult to ensure ALJ adherence to these policies and procedures. 5 The
Subcommittee also requested we describe and assess the effectiveness of SSA’s
quality review system for ALJs’ decisions.6




5
 Our assessment of the use and effectiveness of management controls regarding ALJ adherence to
SSA’s policies and procedures is covered in the Congressional Response Report: Oversight of
Administrative Law Judge Workload Trends (A-12-11-01138).
6
    See Appendix B for a detailed discussion of the scope and methodology of our review.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                             2
                                                             Results of Review
SSA has the authority to review ALJs’ decisions but faces legal limitations in conducting
its reviews. Specifically, Federal regulations require that neither SSA’s random
sampling procedures nor its selective sampling procedures will identify ALJ decisions
for the AC’s pre-effectuation review based on the identity of the decisionmaker or the
identity of the office issuing the decision. 7 According to SSA, this requirement in its
rules ensured that its case selection procedures did not stop ALJs from deciding cases
impartially, free from Agency influence. 8 Under the regulations, the AC has 60 days in
which to decide whether to take an own motion review of a claimant’s case, 9 and the
decision is subject to change based on the review results. 10

SSA also has the authority to conduct post-effectuation reviews of specific ALJ
decisions based on anomalies, such as unusually high percentages of allowance or
denial decisions. Post-effectuation reviews occur after the 60-day period within which
the AC can take own motion review and ordinarily do not result in a change to the
decision. 11 The post-effectuation reviews identify whether ALJs followed SSA’s policies
and procedures. If SSA determines an ALJ failed to comply with the Agency’s policies
and procedures, it can issue directives to the ALJ to comply. If the ALJ fails to comply
with the directives, SSA can seek disciplinary actions against the ALJ. SSA also uses
post-effectuation reviews to identify training needs.

Most recently, SSA conducted three types of reviews of ALJs’ decisions.

• In FY 2011, ODAR completed its first annual pre-effectuation review of ALJ
   decisions, reviewing 3,692 randomly selected allowance decisions. Based on the
   case review, ODAR’s AC allowed the ALJs’ decisions to proceed to effectuation,
   issued final decisions on the cases, or returned the cases to the ALJs with
   instructions for additional actions.



7
    20 C.F.R. §§ 404.969(b)(1), 416.1469(b)(1).

8
  Administrative Review Process; Identification and Referral of Cases for Quality Review Under the
Appeals Council's Authority to Review Cases on Its Own Motion, 63 Fed. Reg. 36560, 36566
(July 7, 1998).
9
  20 C.F.R. §§ 404.969(a), 416.1469(a). When the AC reviews a case absent a request from the claimant
to review the case, the AC is reviewing the case on its own motion.
10
  After a pre-effectuation review of a decision, the AC has the authority to issue its own final decision or
return the case for the ALJ to conduct further proceedings. See 20 C.F.R. §§ 404.967, 416.1467.
11
  Generally, an ALJ’s decision can only be changed if it has been reviewed within the 60-day appeal
period. See 20 C.F.R. §§ 404.968(a)(1), 404.969(a), 416.1468(a), 416.1469(a). After the 60-day period
ends, the AC may reopen and revise final agency decisions only under certain limited circumstances.
See 20 C.F.R. §§ 404.987(b), 404.988, 404.989, 416.1487(b), 416.1488, 416.1489.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                           3
• In FY 2011, ODAR conducted seven post-effectuation studies on cases based on
   anomalies that came to its attention. Since these studies occurred post-effectuation,
   these decisions were not changed even if they were found to include errors. 12
   ODAR plans to use the results of the studies for training purposes.

• In FY 2010, SSA’s Office of Quality Performance (OQP) began performing
   post-effectuation reviews of randomly selected ALJ decisions. OQP completed
   reviews of 2,044 ALJ decisions issued during FYs 2009 and 2010. Since these
   reviews were post-effectuation, these decisions were not changed even if they were
   found to include errors (except for the rare instance when such a decision satisfied
   the criteria for reopening). 13 ODAR uses the results of the OQP reviews to ensure
   ALJs are following policies and procedures and identify training that may be
   necessary for ALJs and hearing office staff.

SSA’S AUTHORITY TO REVIEW ALJ DECISIONS

Congress created the administrative hearing process and the ALJ position to ensure
public confidence in the adjudication process and ALJs’ decisions. 14 Accordingly,
Congress enacted the Administrative Procedure Act (APA) in part to protect ALJs’
qualified decisional independence. 15 The APA put safeguards in place to ensure the
independence of ALJs’ judgments and that ALJs would not be paid, promoted, or
discharged arbitrarily or for political reasons. Congress enacted provisions to address
how ALJs are hired, paid, and disciplined. 16 Furthermore, Congress excluded ALJs
from performance evaluations and prevented agencies from requiring that ALJs perform
duties that are inconsistent with their responsibilities as adjudicators.17 By protecting
the independence of the ALJ position and the ALJ’s decision, Congress intended to
maintain public confidence in the essential fairness of the process. 18


12
     Id.
13
     See fn. 11, supra at p. 3.
14
     Nash v. Califano, 613 F.2d 10, 16 (2d Cir. 1980).
15
     Id.
16
  Congress enacted the APA on June 11, 1946. Pub. L. No. 79-404, 60 Stat. 237 (1946). Section 11
governs the establishment of the “examiner” (now ALJ) position. Id.
17
     5 U.S.C. §§ 1305, 4301(2)(D).
18
   Federal courts have addressed the basis and purpose of ALJs’ qualified decisional independence. For
example, in Nash v. Califano, the Second Circuit observed that the APA’s provisions “confer a qualified
right of decisional independence upon ALJs.” See Nash, 613 F.2d at 15. As support, the court cited the
APA sections that safeguard the pay and tenure of ALJs and exempt ALJs from performance evaluations.
Id., citing 5 U.S.C. §§ 554, 4301, 5372; 5 C.F.R. § 930.211. Examining the purpose, the court stated as
follows: “The independence granted to ALJs is designed to maintain public confidence in the essential
fairness of the process through which Social Security benefits are allocated by ensuring impartial
decisionmaking.” See Nash, 613 F.2d at 16.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                  4
Although ALJs have qualified decisional independence, they must follow their agency’s
policies and procedures when making adjudicatory decisions. SSA has defined the
concept of qualified decisional independence as follows.

          “Qualified decisional independence” means that ALJs must be impartial in
          conducting hearings. They must decide cases based on the facts in each
          case and in accordance with agency policy as laid out in regulations,
          rulings, and other policy statements. Further, because of their qualified
          decisional independence, ALJs make their decisions free from agency
          pressure or pressure by a party to decide a particular case, or a particular
          percentage of cases, in a particular way. The agency may not take
          actions that abridge the duty of impartiality owed to claimants when ALJs
          hear and decide claims. 19

While the APA establishes an ALJ’s qualified decisional independence, it also
authorizes an agency to review an ALJ’s decisions. Specifically, the APA provides that,
“. . . [o]n appeal from or review of [an ALJ’s] decision, the agency has all the powers
which it would have in making the initial decision . . . .”20 Further, the APA requires that
ALJs conduct hearings and make or recommend decisions “. . . [s]ubject to published
rules of the agency . . . .” 21 Therefore, according to SSA, the APA clarifies SSA’s
authority to set the rules that dictate how ALJs exercise authority.

In addition, the Social Security Act (Act) does not expressly limit SSA’s ability to review
ALJ decisions. In fact, the Act grants the Commissioner of Social Security the “full
power and authority to make rules and regulations and to establish procedures” that
govern the conduct of adjudications.22

While the APA and the Act permit SSA to review ALJ decisions, the Agency cannot
review ALJ decisions in any manner it chooses. For instance, in October 1981, SSA
instituted the Bellmon Review Program where the AC reviewed pre-effectuation
decisions of ALJs with high allowance rates. Under the program, the AC reviewed
these ALJs’ decisions to determine whether the decisions were correct, and, if they
were not, the AC issued final decisions or returned cases to ALJs with instructions for
additional actions. The Association of Administrative Law Judges filed suit against SSA
and alleged that the Bellmon Review Program violated ALJs’ decisional
independence. 23 When the district court issued its decision in 1984, SSA no longer



19
  Rules for Setting the Time and Place for a Hearing Before an Administrative Law Judge, 75 Fed. Reg.
39154, 39156 (July 8, 2010).
20
     5 U.S.C. § 557(b).
21
     5 U.S.C. § 556(c).
22
     Social Security Act § 205(a), 42 U.S.C. 405(a).
23
     Association of Administrative Law Judges v. Heckler, 594 F. Supp. 1132 (D.D.C. 1984).


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                    5
used the Bellmon Review Program. 24 The court did not find that the Bellmon Review
Program violated the law, but it did find that focusing review on ALJs with high
allowance rates created an “atmosphere of tension and unfairness which violated the
spirit of the APA, if no specific provision thereof.” 25

In 1998, SSA published revised regulations regarding reviews of ALJs’ decisions.26 The
revised regulations prevent SSA from conducting pre-effectuation reviews of ALJs’
decisions based on the identity of a specific ALJ or the hearing office where the decision
was made. 27 Instead, SSA uses random and selective sampling when selecting ALJs’
decisions for pre-effectuation reviews. 28

SSA’s regulations authorize the AC to issue its own decision or return a case to an ALJ
after reviewing an ALJ’s decision under the following circumstances.

1. If a claimant is dissatisfied with an ALJ’s decision or dismissal, the claimant has
    60 days following receipt of the decision or dismissal to request AC review. 29

2. SSA can refer an ALJ’s decision to the AC if, in the Agency’s view, the decision
    cannot be effectuated because of a clerical error, the ruling is inconsistent with
    SSA’s laws and policies, or the decision is unclear regarding a matter that affects the
    claim’s outcome. 30

3. Within 60 days after the date of an ALJ’s decision or dismissal, SSA is permitted to
   use random and selective sampling to refer cases to the AC for possible review
   under the AC’s own motion as part of a quality assurance program. 31

In addition, SSA can perform post-effectuation reviews of ALJs’ decisions that do not
require sampling, but the Agency ordinarily cannot change the ALJs’ decisions.32 For
example, SSA can conduct special studies based on anomalies, such as the outliers in

24
     Id. at 1141.
25
     Id. at 1143.
26
     See fn. 8.
27
     20 C.F.R. §§ 404.969(b)(1), 416.1469(b)(1).
28
     Id.
29
     20 C.F.R. §§ 404.967, 404.968, 416.1467, 416.1468.
30
     20 C.F.R. §§ 404.969(b)(2), 416.1469(b)(2).
31
     20 C.F.R. §§ 404.969(b)(1), 416.1469(b)(1).
32
  As noted in fn. 11, unless a case satisfies the criteria for reopening, an ALJ’s decision can be changed
only if it has been reviewed within the 60-day appeal period. See 20 C.F.R. §§ 404.968(a)(1),
404.969(b)(1), 404.987(b), 404.988, 404.989, 416.1468(a), 416.1469(b)(1), 416.1487(b), 416.1488,
416.1489.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                         6
allowance and denial rates or the number of decisions issued by an ALJ or a hearing
office. The special studies allow SSA to “gather data and form an opinion of an ALJ’s
performance,” 33 including determining whether ALJs properly interpreted and applied
SSA’s policies. If SSA determines an ALJ failed to comply with the Agency’s policies
and procedures, it can issue directives to the ALJ to comply. If the ALJ fails to comply
with the directives, SSA can seek disciplinary actions against the ALJ. 34

ODAR’S QUALITY REVIEW SYSTEM

In FY 2010, ODAR’s Office of Appellate Operations (OAO) created Quality Review
Branches (QRB) to conduct pre-effectuation reviews of hearing-level decisions. 37 QRBs
review a sample of disability hearing-level allowances to determine whether the
decisions are consistent with SSA regulations, policies, and procedures. 38 If the QRB
questions a decision, the AC will choose whether to
review the case. Based on its review, the AC will        Table 1: Cases Reviewed by QRBs
                                                                                    35
either issue its own decision on the case or return           and the AC in FY 2011
the case to the ALJ with instructions for additional           QRB Cases Reviewed
                                                         Cases Reviewed                3,692
actions.
                                                                                    AC Actions
                                                                       Cases Reviewed                 813
In FY 2011, QRBs reviewed 3,692 hearing-level                            Returned to ALJs             550
decisions, of which the AC reviewed 813 decisions                        Final Decisions
                                                                                         36
                                                                                                      135
(22 percent) (see Table 1). The AC reviewed cases                        Final Action Pending         128
if there appeared to be an ALJ abuse of discretion,                    Percentage of Cases
                                                                                                      22%
an error of law, or a decision not supported by                        Reviewed by the AC

33
     Association of Administrative Law Judges, 594 F. Supp. at 1140.
34
  According to SSA, the Agency cannot take disciplinary actions against an ALJ based solely on the
ALJ’s decisions in particular cases. SSA’s basis for this belief comes from its interpretation of the Merit
System Protection Board’s ruling In re Chocallo, 1 M.S.P.R. 605, 610-11 (1980) (holding that Board will
not find good cause to discipline an ALJ based solely on decision outcomes, and it will carefully examine
for satisfaction of the good cause standard any proposed discipline based on an ALJ’s performance of an
adjudicatory function).
35
  Figures in Table 1 came from the SSA, OAO, Executive Director’s Broadcast, Volume 3, Issue 2
(January 20, 2012).
36
  Id. As of January 20, 2012, ODAR affirmed the hearing allowance decision in 73 cases, affirmed the
hearing allowance but corrected an issue in 57 cases, and reversed the hearing allowance decision in
5 cases.
37
 While QRBs were created in FY 2010, the quality review process did not start until FY 2011. The
QRBs are located in Crystal City, Virginia.
38
   Sampled cases are selected in equal numbers from all regions plus the National Hearing Centers and
include both ALJ and Attorney Adjudicator decisions. In FY 2011, critical/terminal illness cases,
continuing disability review cases, and cases returned by the Federal courts were excluded from selection
in the sample. ODAR limited its review to allowances in FY 2011 because the QRBs were in their first
year with new staff that required training and experience. In FY 2012, ODAR expects to expand the
number of pre-effectuation reviews beyond the 3,692 reviewed in FY 2011 and to include other types of
actions, such as unfavorable decisions and dismissals.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                      7
substantial evidence. 39 The AC returned cases that required additional development to
make a decision, lacked sufficient evidence to make a decision, or had on-the-record
decisions that required hearings.

For cases that were not returned to ALJs, the AC issued a decision that

• reversed the hearing allowance decision,
• affirmed the hearing allowance decision, or
• affirmed the hearing allowance decision but corrected an issue that was not fully
   explained in the ALJ’s decision.

ODAR uses the results of the case reviews to identify training opportunities for all ALJs
and hearing office staff. However, individual ALJs and hearing offices did not know the
results of the QRBs’ or AC’s reviews of their specific cases. ALJs only knew the results
of cases returned to them for additional actions. When the AC issued its own decision,
it did not notify the ALJ.

In addition, ODAR did not maintain data on the numbers of cases the AC reviewed for
each ALJ or hearing office. Therefore, ODAR could not identify any training
opportunities needed for individual ALJs or hearing offices. However, once ODAR has
collected more data, it will be able to draw conclusions at the hearing office and
individual ALJ level. ODAR will then provide direct feedback to the hearing offices and
ALJs based on those conclusions.

ODAR’S SPECIAL STUDIES

In FY 2011, ODAR’s OAO performed 7 special studies in addition to the 3,692 cases
the QRBs reviewed. 40 These special studies were based on anomalies that came to
ODAR’s attention. The cases selected for the special studies were post-effectuation.
Therefore, ODAR could not ordinarily change the decisions. Rather, ODAR planned to
use the results of the special studies to identify training needs for FY 2012.

ALJs and hearing offices generally did not know the results of any special studies of
their decisions. In fact, despite the numerous issues found during the special studies,41
only one ALJ was aware that a special study had been conducted. In this case, the



39
     SSA, POMS, GN 03104.350 A.1 (July 10, 2001).
40
  These special studies consisted of in-depth reviews of decisions issued by individual ALJs and Attorney
Adjudicators. In FY 2012, ODAR plans to undertake at least 15 other special studies, including exploring
further any issues arising from in its QRB reviews.
41
   For example, ODAR identified ALJs and Attorney Adjudicators who consistently failed to adequately
develop the record, lacked rationale in the hearing decision, failed to properly evaluate evidence, and
failed to inform unrepresented claimants of their rights to representation.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                      8
study identified that this ALJ was not following SSA’s policies and procedures. The ALJ
was issued a directive to adhere to the policies and procedures and the ALJ complied. 42

OQP’S QUALITY REVIEW SYSTEM

In FY 2010, OQP implemented its post-effectuation disability case review (DCR) of
ALJs’ decisions. 43 The DCR is an in-depth review conducted by disability examiners in
OQP who assess the accuracy of ALJ decisions. Cases for the DCR are selected
randomly from the nation-wide pool of ALJ allowance and denial decisions. 44 OQP
reviews a case to determine whether a preponderance of the evidence supports the
ALJ’s decision. If OQP disagrees with the ALJ’s decision, it refers the case to the AC
for review. The AC reviews the case and provides an opinion to OQP citing agreement
or disagreement with OQP’s findings.

While OQP agreed with the majority of the decisions it reviewed, it disagreed more often
with ALJs’ allowance decisions than their denial decisions. Specifically, for decisions
issued in FYs 2009 and 2010, OQP disagreed with ALJs’ allowance decisions in
14 percent of the cases reviewed (see Table 2). At the same time, OQP disagreed with
ALJs’ denial decisions in 10 percent of the cases reviewed. 45




42
  After we issued our draft of this report, the Committee on Ways and Means, Subcommittee on Social
Security, requested additional information regarding the special studies. To address the additional
questions, members of ODAR’s executive staff met with the Subcommittee on February 23, 2012.
43
  The DCR was implemented in December 2009 with the first review covering ALJ decisions made from
April through September 2009. OQP reports the results of its DCRs every 6 months.
44
   For FYs 2009 and 2010, OQP only selected ALJ allowance decisions that had previously undergone a
quality assurance review by OQP following an initial denial decision. OQP used these criteria to collect
additional data and address how an accurate initial denial subsequently resulted in an accurate ALJ
allowance. In FY 2011, OQP changed its sampling methodology to include all ALJ allowances regardless
of whether the case was previously reviewed by OQP. OQP will continue to select ALJ denial decisions
regardless of whether OQP had previously conducted a quality assurance review. In FY 2011, OQP
began a separate review of ALJ dismissals.
45
  OQP’s review of FY 2011 cases was not complete. As of September 15, 2011, OQP had reviewed
193 ALJ allowances, with a 5-percent disagreement rate, and 219 ALJ denials, with a 2-percent
disagreement rate.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                   9
                                                                                     46
                   Table 2: Disability Case Review Results for FYs 2009 and 2010
                          ALJ Allowances                              ALJ Denials
 Fiscal
               Number     Number with Disagreement       Number      Number with Disagreement
  Year
              Reviewed Disagreement        Percentage   Reviewed Disagreement     Percentage
         47
 2009            300            31            10%          300           33          11%
 2010            722           117            16%          722           66           9%
 Total          1,022          148            14%         1,022          99          10%

Since the DCRs occur post-effectuation, ODAR ordinarily cannot change ALJs’
decisions. 48 Rather, ODAR uses information from the DCRs to identify policies and
procedures that need clarification or additional training that is necessary for ALJs and
hearing office staff. According to OQP, the DCR was designed to provide data and
report agreement rates with its analyses only at the national level. As such, OQP would
not inform the regional offices, hearing offices, or individual ALJs directly of the results
of the DCRs conducted on particular decisions. Nor would OQP have any data of
individual ALJ’s, a hearing office’s, or a region’s disagreements with its analyses to
maintain. However, ODAR had monitored the findings in relation to individual ALJs and
notified regional offices and individual ALJs of the results in some cases, particularly
when an issue existed that warranted correction or suggests potential training needs.




46
  OQP provided the figures in this table. The numbers with disagreement only include the numbers of
cases in which both OQP and the AC disagreed with the ALJs’ decisions.
47
     FY 2009 results are for April through September 2009.
48
  The AC returned one DCR case it reviewed to the ALJ because the AC believed the ALJ did not
provide the claimant with a sufficient explanation during the hearing regarding important factors in the
case.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                       10
                                                                        Conclusions
SSA has the authority to review ALJs’ decisions but faces legal restrictions in
conducting its reviews. Specifically, in pre-effectuation reviews where the ALJs’
decisions are subject to change, SSA’s regulations provide that neither SSA’s random
sampling procedures nor its selective sampling procedures will identify ALJ decisions
for AC review based on the identity of the decisionmaker or the office issuing the
decision. The APA and other ALJ-related statutes49 would need to be changed to clarify
SSA’s authority to conduct pre-effectuation reviews of specific ALJs’ decisions based on
anomalies, such as unusually high or low allowance rates.

Otherwise, SSA is limited to performing post-effectuation reviews of specific ALJs’
decisions. Based on post-effectuation reviews, SSA typically does not change the
ALJs’ decisions, but it does determine whether ALJs followed SSA’s policies and
procedures. If SSA determines an ALJ failed to follow SSA’s policies and procedures, it
can issue directives to the ALJ to comply. Ultimately, SSA can seek a finding of good
cause to take disciplinary action against an ALJ who fails to follow the Agency’s
directives.

SSA conducts both pre- and post-effectuation reviews of ALJs’ decisions.50 SSA uses
the results of its reviews and studies to identify changes that are needed in its policies
and procedures and to develop training for ALJs and hearing office staff. However,
most ALJs were not notified of the quality review results of their decisions. Only those
ALJs who received a returned case or a specific directive from SSA were aware of the
quality review results. In addition, SSA did not maintain data on the review results by
ALJ or hearing office. If SSA maintained such data and notified individual ALJs of the
review results, any issues identified could be directly addressed.




49
  Other ALJ-related statutes include 5 U.S.C. §§ 1215, 1305, 3105, 3323, 3344, 3502, 4301, 5372, and
7521.
50
   In addition to its reviews of ALJs’ decisions, SSA commissioned the Administrative Conference of the
United States, an institution that studies Government policy, to perform an independent study of the
disability appeals process. The final recommendations are scheduled to be released in November 2012.
Damian Paletta, Disability-Benefits System Faces Review, The Wall Street Journal (December 15, 2011),
http://online.wsj.com/article/SB10001424052970204844504577098810070396878.html.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)                                 11
                                           Appendices
APPENDIX A – Acronyms
APPENDIX B – Scope and Methodology
APPENDIX C – Administrative Law Judges’ Allowance Decision Rates




SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)
                                                                       Appendix A

Acronyms
    AC                 Appeals Council

    Act                Social Security Act

    ALJ                Administrative Law Judge

    APA                Administrative Procedures Act

    C.F.R.             Code of Federal Regulations

    DCR                Disability Case Review

    FY                 Fiscal Year

    HALLEX             Hearings, Appeals and Litigation Law Manual

    OAO                Office of Appellate Operations

    ODAR               Office of Disability Adjudication and Review

    OGC                Office of the General Counsel

    OIG                Office of the Inspector General

    OQP                Office of Quality Performance

    POMS               Program Operations Manual System

    Pub. L. No.        Public Law Number

    QRB                Quality Review Branch

    SSA                Social Security Administration

    U.S.C.             United States Code




SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)
                                                                       Appendix B

Scope and Methodology
To address the Subcommittee on Social Security’s requests related to the Social
Security Administration’s (SSA) review of administrative law judges’ (ALJ) decisions,
we:

   •   Reviewed applicable Federal laws and regulations; the Hearing, Appeals, and
       Litigation Law Manual; and SSA’s Program Operations Manual System sections
       related to constraints that may make it difficult to ensure ALJs adhere to SSA’s
       policies and procedures.

   •   Obtained information from SSA’s Offices of Disability Adjudication and Review
       (ODAR), Quality Performance (OQP), and General Counsel (OGC), including
       laws and court rulings that affect how SSA can discipline ALJs and information
       on ODAR’s and OQP’s quality review systems, including

         o number of cases reviewed,
         o number and reasons for remands and reversals,
         o how remands and reversals were tracked by ODAR’s quality review system,
           and
        o how disagreements were tracked by OQP’s quality review system.

Our work was conducted at the Office of Audit in Kansas City, Missouri, from August
through December 2011. The entities reviewed were ODAR, OQP, and OGC. We
conducted our review in accordance with the Council of Inspectors General on Integrity
and Efficiency’s Quality Standards for Inspection and Evaluation.




SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)
                                                                                  Appendix C

Administrative Law Judge Allowance Decision
Rates
In Fiscal Year (FY) 2010, there were 1,256 administrative law judges (ALJ) who issued
200 or more dispositions. 1 Of these 1,256 ALJs, there were 259 ALJs with an
allowance decision rate higher than 80 percent (see Chart C-1). 2 The average
allowance decision rate in FY 2010 was 67 percent.

In FY 2011, there were 1,359 ALJs who issued 200 or more dispositions. 3 Of these
1,359 ALJs, there were 181 ALJs with an allowance decision rate higher than
80 percent (see Chart C-1). The average allowance decision rate in FY 2011 was
62 percent.


                          Chart C-1: ALJ Allowance Rates
                        600                                          556 544
                                                               510
                        500


                        400                              376

                Number
                        300                                                      259
                of ALJs


                        200                                                            181

                                                  117
                        100                  60
                                 5    7
                           0
                                 0 to 20    21 to 40     41 to 60    61 to 80   81 to 100
                                              Percent of Allowance Decisions

                                            FY 2010     FY 2011


1
 In FY 2010, there were 1,398 ALJs who issued dispositions, including allowance and denial decisions
and dismissals of the hearing request. We limited our analysis to ALJs who issued 200 or more
dispositions to ensure the ALJs processed a sufficient number for accurate analysis.
2
 We did not include dismissals in our calculation of allowance decision rates. As such, we calculated
allowance decision rates as the percentage of allowances to all allowance and denial decisions.
3
    In FY 2011, there were 1,515 ALJs who issued dispositions.


SSA’s Review of Administrative Law Judges’ Decisions (A-07-12-21234)
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
 Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform
Chairman and Ranking Minority Member, Committee on Appropriations, House of
 Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
 Education and Related Agencies, Committee on Appropriations, House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
 Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
 Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
